No. 19-177
IN THE

Supreme Court of the United States
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, et al.,
Petitioners,
v.
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
et al.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF IN OPPOSITION

ARI J. SAVITZKY
KATHERINE FLORIO
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007

DAVID W. BOWKER
Counsel of Record
CATHERINE M.A. CARROLL
DAVID A. STOOPLER
KEVIN M. LAMB
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
david.bowker@wilmerhale.com

QUESTION PRESENTED
In Agency for International Development v. Alliance for Open Society International, Inc., 570 U.S. 205
(2013), this Court held that the so-called Policy Requirement—which requires recipients of federal
HIV/AIDS funds to espouse the government’s viewpoint on prostitution—“violates the First Amendment”
by “compel[ling] as a condition of federal funding the
affirmation of a belief that by its nature cannot be confined within the scope of the Government program” or
“‘cabin[ed]’” to affiliates that are “clearly identified”
with respondents. Id. at 219-221. Despite this Court’s
decision, the government continued to apply the Policy
Requirement, including to affiliates that share respondents’ same name, brand, mission, and voice.
The question presented is whether the district
court abused its discretion in entering a permanent injunction to enforce this Court’s decision and remedy
the violation of respondents’ First Amendment rights
by prohibiting the government from enforcing the Policy Requirement against respondents or their clearly
identified affiliates, regardless of where those affiliates
are incorporated.

(i)

CORPORATE DISCLOSURE STATEMENT
Respondents have no parent corporations, and no
publicly held company owns 10% or more of any respondent’s stock.

(ii)

TABLE OF CONTENTS
Page
QUESTION PRESENTED ............................................... i
CORPORATE DISCLOSURE STATEMENT ............. ii
TABLE OF AUTHORITIES ........................................... v
INTRODUCTION .............................................................. 1
STATEMENT ..................................................................... 4
A. Respondents And Their Affiliates’
Global Fight Against HIV/AIDS ....................... 4
B. The Policy Requirement ...................................... 9
C. Prior Litigation ................................................... 11
1.

The lower-court decisions and the
affiliate guidelines ........................................ 11

2.

This Court’s 2013 decision .......................... 13

D. Proceedings Below .............................................. 17
REASONS FOR DENYING THE PETITION ............. 22
I.

THE QUESTION ON WHICH THE
GOVERNMENT SEEKS REVIEW IS NOT
PRESENTED ................................................................. 22

II. THE QUESTION THAT IS PRESENTED DOES
NOT WARRANT REVIEW ............................................ 24
A. The Decision Below Reflects A
Discretionary And Factbound
Application Of Settled Principles To
Remedy A Violation This Court
Already Found..................................................... 25
B. There Is No Circuit Split Or Conflict
With This Court’s Precedent............................. 30
(iii)

iv
TABLE OF CONTENTS—Continued
Page
C. Whether The District Court Abused
Its Discretion Has No Importance
Beyond The Facts Of This Case ....................... 32
CONCLUSION ................................................................. 35

v
TABLE OF AUTHORITIES
CASES
Page(s)
Agency for International Development v.
Alliance for Open Society
International, Inc., 570 U.S. 205 (2013) ......... passim
Alliance for Open Society International,
Inc. v. U.S. Agency for International
Development, 254 F. App’x 843 (2d Cir.
2007) ....................................................................... 11, 12
Alliance for Open Society International,
Inc. v. U.S. Agency for International
Development, 430 F. Supp. 2d 222
(S.D.N.Y. 2006) ........................................................... 11
Alliance for Open Society International,
Inc. v. U.S. Agency for International
Development, 570 F. Supp. 2d 533
(S.D.N.Y. 2008) ........................................................... 12
Alliance for Open Society International,
Inc. v. U.S. Agency for International
Development, 651 F.3d 218 (2d Cir. 2011) ............... 13
Alliance for Open Society International,
Inc. v. U.S. Agency for International
Development, 678 F.3d 127 (2d Cir. 2011) ............... 13
Center for Reproductive Law & Policy v.
Bush, 304 F.3d 183 (2d Cir. 2002)............................. 32
DKT Memorial Fund Ltd. v. USAID, 887
F.2d 275 (D.C. Cir. 1989) ........................................... 31
FCC v. League of Women Voters of
California, 468 U.S. 364 (1984) .......................... 14, 30

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Planned Parenthood Federation of America,
Inc. v. USAID, 915 F.2d 59 (2d Cir. 1990) .............. 32
Regan v. Taxation with Representation of
Washington, 461 U.S. 540 (1983) ........................ 14, 25
Rust v. Sullivan, 500 U.S. 173 (1991) ................. 14, 16, 25
STATUTES, RULES, AND REGULATIONS
22 U.S.C.
§ 2151u............................................................................ 9
§ 7601 .............................................................................. 9
§ 7603 .............................................................................. 9
§ 7621 .............................................................................. 9
§ 7631 ........................................................................ 9, 10
2 C.F.R. § 200.331 .................................................... 8, 18, 29
45 C.F.R.
§ 89.1 ............................................................................. 12
§ 89.3 ........................................................... 10, 13, 19, 29
HHS, Interim Guidance for Implementation
of the Organizational Integrity of
Entities Implementing Programs and
Activities Under the Leadership Act,
79 Fed. Reg. 55,367 (Sept. 16, 2014) ........................ 18
HHS, Organizational Integrity of Entities
That Are Implementing Programs and
Activities Under the Leadership Act,
75 Fed. Reg. 18,760 (Apr. 13, 2010)
(codified at 45 C.F.R. pt. 89) ............................... 12, 27

vii
TABLE OF AUTHORITIES—Continued
Page(s)
USAID, AAPD 14-04 (Sept. 12, 2014),
https://www.usaid.gov/sites/default/file
s/documents/1868/AAPD14-04.pdf .......................... 18
USAID, ADS 303.3.9 (rev. Aug. 1, 2019),
https://www.usaid.gov/sites/default/file
s/documents/1868/303.pdf ............................................ 9

IN THE

Supreme Court of the United States
No. 19-77
UNITED STATES AGENCY FOR INTERNATIONAL
DEVELOPMENT, et al.,
Petitioners,
v.
ALLIANCE FOR OPEN SOCIETY INTERNATIONAL, INC.,
et al.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF IN OPPOSITION

INTRODUCTION
The government argues that review should be
granted because the lower courts invalidated an Act of
Congress on constitutional grounds. That is incorrect.
This Court invalidated the forced-speech law at issue in
2013. The decisions below merely crafted a remedy to
stop the government from continuing to apply that law
in a manner that violates respondents’ First Amendment rights. The lower courts’ discretionary determinations regarding how best to ensure that respondents
receive the full protection of this Court’s decision do
not warrant review.

2
In 2013, this Court struck down the so-called “Policy Requirement,” a funding condition that requires
public-health organizations like respondents to adopt
and espouse as their own the government’s viewpoint
on prostitution. Agency for Int’l Dev. v. Alliance for
Open Soc’y Int’l, Inc., 570 U.S. 205 (2013) (AOSI). The
Policy Requirement, the Court held, “violates the First
Amendment and cannot be sustained.” Id. at 221. In so
holding, the Court rejected the government’s argument
that imposing the Policy Requirement on respondents’
affiliates instead of respondents might cure the First
Amendment problem by “‘cabin[ing] [its] effects’” to
the affiliates. Id. at 219. That proposal failed, the
Court held, because the Policy Requirement “compel[s]
as a condition of federal funding the affirmation of a belief that by its nature cannot be confined within the
scope of the Government program.” Id. at 221.
That should have ended this case. Instead, the
government persisted in applying the Policy Requirement, repeatedly failing to remove it from funding documents or to clearly exempt respondents or their affiliates, thereby continuing to inflict on respondents the
First Amendment harm this Court identified.
Respondents accordingly sought a permanent injunction to implement this Court’s decision and remedy
that harm. In those remedial proceedings, the government conceded it could not apply the Policy Requirement to respondents, but maintained (as it previously
argued to this Court) that it should be allowed to apply
the Policy Requirement to respondents’ co-branded affiliates incorporated overseas. Hewing to this Court’s
reasoning—and on an undisputed record demonstrating
that respondents “share their names, logos, and brands
with their foreign affiliates, and together … present a
united front,” Pet. App. 11a—the district court en-

3
joined the government from applying the Policy Requirement to respondents or any of their clearly identified affiliates, whether foreign or domestic. As the district court explained, this Court already held that the
Policy Requirement’s effects cannot be cabined to affiliates without harming respondents’ First Amendment
rights, and the constitutional harm to respondents from
imposing the Policy Requirement on their affiliates “is
the same regardless of the nature of the affiliate.” Pet.
App. 55a. The Second Circuit affirmed, finding no
abuse of discretion in that application of this Court’s
holding to the facts before it.
That decision presents no issue worthy of review.
The government argues that respondents’ affiliates
have no First Amendment rights because they are incorporated and operate outside the United States. But
that is not the issue, and the lower courts did not hold
otherwise. The injunction here protects respondents—
all of which are U.S.-based organizations—by prohibiting the government from enforcing the Policy Requirement in a manner that violates their First
Amendment rights. The government does not contend
that the district court abused its discretion in crafting
that injunction and identifies no important legal issue
pertaining to the exercise or review of that remedial
discretion. It also identifies no split on whether it may
be enjoined from enforcing an unconstitutional statute
against a clearly identified foreign affiliate to protect a
U.S. plaintiff’s First Amendment rights. The cases on
which it relies do not speak to that issue and are the
same ones this Court already distinguished in explaining why the Policy Requirement is unconstitutional.
Respondents have litigated this case since 2005. In
that time, this Court and the lower courts have had to
deliver the same message to the government seven dif-

4
ferent times: The statute “violates the First Amendment and cannot be sustained.” 570 U.S. at 221. It is
time for respondents to enjoy complete relief and this
case to end. The Second Circuit’s factbound determination that the district court “did not abuse its discretion
in issuing its permanent injunction,” Pet. App. 7a, does
not implicate the constitutionality of a federal statute in
any way beyond what this Court has already said. The
specter that the lower courts’ decisions would give foreign entities First Amendment rights to bring their
own challenges to federal funding conditions is not now,
and has never been, at issue here. If, in some other
case, other litigants wanted to press that position, the
issue on which the government seeks review might be
ripe. But it is not presented in this case. The petition
should be denied.
STATEMENT
A. Respondents And Their Affiliates’ Global
Fight Against HIV/AIDS
Respondents are U.S.-based nongovernmental organizations (NGOs) leading the global fight against
HIV/AIDS. Respondent InterAction, for example, is
the largest alliance of U.S.-based internationaldevelopment and humanitarian NGOs. Its members
include, among numerous other U.S. NGOs, Cooperative for Assistance and Relief Everywhere, Inc.
(CARE USA), one of the world’s largest private international humanitarian organizations, CAJA70, 1928;
World Vision International, a global Christian relief,
development, and advocacy organization, see World Vision International, Our Core Values, http://www.wvi.
org/our-core-values; respondent Pathfinder International, a global nonprofit focused on reproductive
health, CAJA85; and Save the Children Federation,

5
Inc., which works to give children everywhere a
healthy start, the opportunity to learn, and protection
from harm, CAJA1989. Each of these organizations
engages in critical HIV/AIDS work around the world.
See, e.g., CAJA73-75, 89-90, 93-94, 1991.
Respondents operate in more than 120 countries,
performing lifesaving work with funding from a wide
variety of sources, including the United States and foreign governments, agencies of the United Nations and
the World Bank, and private foundations. CAJA26, 61,
71, 86, 293-295, 1853, 1928-1929, 1989. For example,
Pathfinder has engaged in HIV/AIDS prevention, care,
and counseling programs across Africa and Asia, including efforts to prevent mother-to-child transmission
of HIV in Kenya, CAJA89-90, and programs to promote HIV-prevention methods among sex workers in
India, CAJA93. CARE works with vulnerable populations to prevent the spread of HIV/AIDS around the
world, including in Bangladesh, where it has been recognized as a best-practices leader by UNAIDS and the
World Health Organization for its efforts to identify
effective prevention strategies involving sex workers
as peer educators. CAJA76.
Respondents carry out this work through global
networks of entities that “share the same name, logo,
brand, and mission.” Pet. App. 4a. The structures of
these networks vary.
Some respondents operate
through unincorporated branch offices. Others operate
through legally distinct entities that are separately incorporated in the countries in which they work. And
others employ a combination of branch offices and separately incorporated affiliates, depending on conditions
within each country. For example, CARE operates
through both branch offices and separately incorporated affiliates around the globe. CARE USA is the

6
founder and largest member of the global federation
CARE International, which itself is separately incorporated. CAJA1928. Within CARE International are
more than a dozen legally separate entities—CARE
USA and its foreign affiliates—each located and incorporated in different countries. Id. Other respondents
use similar structures. See, e.g., CAJA1989 (“There are
currently national Save the Children Organizations,
such as [Save the Children US] and [Save the Children
United Kingdom], incorporated in 30 countries around
the world[.]”); CAJA1853 (“Pathfinder also uses foreign
affiliates. These entities share important bonds with
Pathfinder, but are legally distinct, incorporated in the
countries in which they are located.”). World Vision
International, based in California, is likewise an international coordinating body that oversees a partnership
of separately incorporated affiliates around the globe.
See World Vision International, Our Structure, http://
www.wvi.org/structure-and-funding.
The U.S. government, particularly petitioner U.S.
Agency for International Development (USAID), encourages NGOs to conduct their HIV/AIDS work
through networks of separately incorporated foreign
affiliates rather than through branch offices. See CAJA1933. From 2010 through 2016, USAID emphasized
this preference and shifted funding opportunities toward organizations with that structure. CAJA18591861. Indeed, for many grant opportunities, federal
funding is available only to NGOs that are incorporated
in the country where the program will be conducted.
CAJA1854, 1860-1861. In addition, some foreign governments require NGOs to be incorporated in-country
to perform public-health work there and bar NGOs incorporated elsewhere. CAJA1854.

7
Regardless of how their networks are formally organized, each respondent and its co-branded family of
branches and affiliates operates in practice as a cohesive group and “appear[s] to the public as [a] unified
entit[y].” Pet. App. 5a. Respondents’ and their affiliates’ unified appearance and identity is conveyed
through use of a shared name, logo, branding, mission,
and voice. For instance, CARE’s affiliates, including
CARE USA, are referred to simply as “CARE” or
“CARE” plus the name of the country in which they
operate—e.g., “CARE India.” CAJA1932. World Vision, Save the Children, Pathfinder, and others follow
the same convention. See, e.g., CAJA1855; CAJA1989,
1992. Respondents also share identical branding with
their affiliates across the globe. For example, each organization presents its name (e.g., “CARE” or “Save
the Children”) in the same font, style, and colors as its
affiliates, and affiliates share the same corporate logo,
such as CARE USA’s circle with overlapping hands
around the circumference, or Save the Children’s
bright red circle around a child with outstretched arms.
See, e.g., CAJA1863-1868, 1978-1987.
In addition to common branding, affiliates within a
given network share a mission and speak with a single
voice about their public-health efforts and common
guiding principles. See, e.g., CAJA1929 (explaining that
all affiliates are bound by a common code requiring a
commitment to CARE’s “governance, vision, mission,
programming principles, humanitarian mandate, [and]
common Codes of Ethics and Conduct”); World Vision
International, Vision and Values, http://www.wvi.org/
vision-and-values (explaining that each affiliate must
“covenant” to “uphold” core principles guiding World
Vision’s work to remain in the partnership).

8
That consistent messaging is critical to respondents
because, in practice, the common identity shared with
their affiliates creates “a two-way street,” CAJA1855
(Pathfinder Decl.), in which actions or statements by an
affiliate are imputed to the U.S. NGO and vice versa.
For example, “[i]n Pathfinder’s experience, any Pathfinder entity, whether separately incorporated in a foreign country or not, is viewed by the public as part of a
single entity.” CAJA1856; see also CAJA1932 (CARE
affiliates “are viewed by the public as one CARE entity
speaking with a single global voice[.]”); CAJA1992
(Save the Children affiliates “are viewed by the public
as speaking in a single global voice aligned to their
common mission”). Because of that “two-way street,”
speaking with a unified voice across affiliates is essential to accomplishing each federation’s public-health
mission, raising funds, building a reputation, recruiting
personnel, and keeping employees safe. See, e.g., CAJA1934 (“A common voice and approach is critical to
CARE’s success[.]”); CAJA1992 (“Save the Children’s
strength and effectiveness as a global movement is in
its collective, global identity and approach.”); see also
CAJA1856-1857, 1930-1931, 1934-1935.
Respondents and their affiliates take various steps
to ensure consistency in their messages. For example,
Pathfinder requires foreign affiliates to vet proposed
communications with Pathfinder’s U.S. headquarters
before taking a position on public-health issues. CAJA1857; accord, e.g., CAJA1929-1930, 1944-1958 (detailing portions of CARE’s governing code that regulate
public messaging). In short, respondents and their
branch offices and affiliates are unified organizations
that look and speak as one.

9
B. The Policy Requirement
In 2003, Congress passed the United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria
Act of 2003 (Leadership Act). 22 U.S.C. §§ 7601, 7603.
Finding partnerships with NGOs “critical to the success” of efforts to combat HIV/AIDS, id. § 7621(a); id.
§ 7603(4), Congress appropriated billions of dollars to
support the work of NGOs engaged in HIV/AIDS
treatment and prevention. Those funds are distributed
under the aegis of the President’s Emergency Plan for
AIDS Relief (PEPFAR).
To win Leadership Act funding, an NGO must
“demonstrate[] a capacity to undertake effective development activities.” 22 U.S.C. § 2151u(a). To do so, applicants must identify all their “cost-reimbursement
contracts, grants, or cooperative agreements involving
similar or related programs during the past three
years.” USAID, ADS 303.3.9 (rev. Aug. 1, 2019),
https://www.usaid.gov/sites/default/files/documents/186
8/303.pdf. In many cases where work is to be performed by an affiliate, respondents apply for and receive Leadership Act funds themselves and then make
subawards to the affiliates that will carry out a particular program. Such arrangements are subject to the requirement that the U.S. recipient must monitor the affiliates’ compliance with federal law and all terms and
conditions of the grants. 2 C.F.R. § 200.331; see also
CAJA360-361; Pet. App. 132a.
Recipients of Leadership Act funds are prohibited
from using those funds to “promote or advocate the legalization or practice of prostitution or sex trafficking.”
22 U.S.C. § 7631(e). Respondents have scrupulously
complied with that prohibition, which has never been
challenged in this litigation. But the Leadership Act

10
also purports to impose an affirmative speech requirement, the “Policy Requirement,” under which any
“group or organization” that receives Leadership Act
funds (with a few exceptions) must “have a policy explicitly opposing prostitution and sex trafficking.” Id.
§ 7631(f).
In early 2004, the Department of Justice’s Office of
Legal Counsel expressed the view that the Policy Requirement could not “be constitutionally applied to U.S.
organizations,” regardless of “whether they are operating inside or outside the United States,” and could “be
constitutionally applied to foreign organizations … only
when they are engaged in activities overseas.” Opp.
App. 2a, No. 12-10 (U.S. Dec. 12, 2012). Consistent with
that analysis, petitioners USAID and the Department
of Health and Human Services (HHS) did not enforce
the Requirement against U.S. NGOs for more than a
year after the Leadership Act went into effect. But in
mid-2005, they reversed course and began imposing the
Requirement on respondents.
As implemented by the government, the Policy
Requirement not only requires an affirmative declaration of policy, but also prohibits grant recipients from
“engag[ing] in activities inconsistent with the recipient’s opposition to the practices of prostitution and sex
trafficking”—even when using private funds and acting
outside the scope of the federal program. 45 C.F.R.
§ 89.3. Neither the Act nor the regulations define the
types of speech or activities that would be “inconsistent
with” opposition to prostitution.
Absent the Policy Requirement, respondents would
not adopt policies expressing opposition to prostitution.
CAJA32, 63, 73-74, 76, 89-90, 300-301. In general, to
maintain their ability to conduct effective public-health

11
programs in many parts of the world, respondents prefer to avoid taking stances on contentious political and
cultural issues. CAJA65, 90, 1858-1859. Moreover, respondents often work directly with sex workers
through programs with proven success in reducing
rates of HIV infection. CAJA74-75, 92-94, 295. The
Policy Requirement compels respondents to express a
view they believe “stigmatizes one of the very groups
whose trust they must earn to conduct effective
HIV/AIDS prevention.” CAJA37; see CAJA65-66, 7476. The Policy Requirement thus impedes successful
work by respondents in fighting HIV/AIDS. See, e.g.,
Public Health Deans & Professors Amicus Br., No. 1210 (U.S. Apr. 3, 2013); Secretariat of Joint United Nations Programme on HIV/AIDS Amicus Br., No. 12-10
(U.S. Apr. 3, 2013).
C. Prior Litigation
1. The lower-court decisions and the affiliate guidelines
Respondents brought this action in September
2005, shortly after USAID and HHS began enforcing
the Policy Requirement against U.S. NGOs. The district court granted a preliminary injunction, holding
that the Policy Requirement “compels [respondents] to
speak in contravention of the First Amendment.” 430
F. Supp. 2d 222, 278 (S.D.N.Y. 2006).
The government appealed. At oral argument, the
government informed the court of appeals of its intent
to issue new implementing regulations that it claimed
would resolve respondents’ First Amendment claim.
254 F. App’x 843, 845-846 (2d Cir. 2007). The new regulations purported to “clarif[y] that an independent organization affiliated with a recipient of Leadership Act

12
funds need not have a policy explicitly opposing prostitution” and could engage in activities inconsistent with
a policy opposing prostitution, “so long as the affiliate
satisfies the criteria for objective integrity and independence” from the funding recipient. CAJA21, 23.
Among the factors the government would consider in
evaluating whether an affiliate maintained sufficient
separation were whether the entity has separate personnel and facilities and whether “signs and other
forms of identification … distinguish the affiliate from
the recipient.” CAJA 22-24. USAID and HHS claimed
that separation between the funding recipient and the
affiliate was necessary to avoid any attribution of the
affiliate’s views to the government. CAJA21, 23.
The court of appeals remanded for consideration of
the new regulations. 254 F. App’x at 846. On remand,
the district court held that the affiliate guidelines did
not cure the First Amendment problem of “requiring
[respondents] to adopt the Government’s view.” 570 F.
Supp. 2d 533, 545 (S.D.N.Y. 2008). The government
appealed again.
While the second appeal was pending, USAID and
HHS again revised the affiliate guidelines, purporting
to allow greater flexibility for partnerships between
affiliates that are subject to the Policy Requirement
and affiliates that are not. See HHS, Organizational
Integrity of Entities That Are Implementing Programs
and Activities Under the Leadership Act, 75 Fed. Reg.
18,760 (Apr. 13, 2010) (codified at 45 C.F.R. pt. 89); CAJA333-350. The revised guidelines—which remain in
effect today—continued to require recipients of Leadership Act funds not only to comply with the Policy
Requirement, 45 C.F.R. § 89.1(b), but also to refrain
from activities “inconsistent” with an opposition to
prostitution and to maintain “objective … independ-

13
ence” from any affiliate engaged in inconsistent activities, id. § 89.3.
In the renewed appeal, the government contended
that the new guidelines “alleviate[d] any burden on recipients who do not wish to communicate the government’s message” by allowing “[a]ny organization unwilling to state its opposition to prostitution” to “remain neutral … while ‘setting up a subsidiary organization’” that would comply with the Policy Requirement.
U.S. Br. 57, No. 08-4917 (2d Cir. May 11, 2010). “The
parent organization,” the government maintained,
would “not [be] compelled to speak any message at all,
and [could] continue to engage in activities inconsistent
with the required policy with funding from other
sources.” Id. Only the affiliate would be bound by the
Policy Requirement. Id.
Over Judge Straub’s dissent, the court of appeals
rejected the government’s argument, explaining that
“whether the recipient is a parent or an affiliate, it is
required to affirmatively speak the government’s
viewpoint on prostitution.” 651 F.3d 218, 239 (2d Cir.
2011). The guidelines did not alter this unconstitutional
“affirmative requirement.” Id. The court of appeals
denied rehearing. 678 F.3d 127 (2d Cir. 2011).
2. This Court’s 2013 decision
The government sought this Court’s review, asserting that the decision below amounted to a “facial
invalidation” of the Policy Requirement, U.S. Cert. Reply 5 & n.1, No. 12-10 (U.S. Dec. 21, 2012), and that the
lower courts had “enjoined on constitutional grounds a
provision in an Act of Congress.” U.S. Cert. Pet. 11,
No. 12-10 (U.S. July 2, 2012). It also argued that “further proceedings [in the district court] could not bear

14
on the constitutional question” of whether the Policy
Requirement “violates the First Amendment.” U.S.
Cert. Reply 4; see also U.S. Cert. Pet. i (Question Presented). This Court granted certiorari.
On the merits, the government again argued that
the revised affiliate guidelines resolved any First
Amendment violation, advancing two independent
points. First, relying on Rust v. Sullivan, 500 U.S. 173
(1991), FCC v. League of Women Voters of California,
468 U.S. 364 (1984), and Regan v. Taxation with Representation of Washington, 461 U.S. 540 (1983), the government contended that the guidelines would “obviate
any constitutional difficulty” by allowing respondents
to accept Leadership Act funds and espouse the required anti-prostitution viewpoint themselves, while
engaging in inconsistent activities through affiliates.
CAJA1732. On this view, affiliating with a separate entity that was not subject to the Policy Requirement
would ostensibly provide an outlet for respondents’ free
expression.
Second, and in the alternative, the government argued that the guidelines would allow respondents to
“form affiliates whose sole purpose is receiving and
administering federal HIV/AIDS funding.” CAJA1734.
Respondents could forgo Leadership Act funds for
their own accounts—and thus not be bound by the Policy Requirement—while accepting those funds through
affiliates that would comply with the Policy Requirement. Id. The government argued that by shifting the
onus of compliance to their affiliates, respondents could
“cabin the effects” of the Policy Requirement to those
affiliates while remaining free themselves to express
“contrary views on prostitution.” CAJA1735; see also
CAJA1763-1764.

15
In advancing these arguments, the government
understood—as did this Court—that respondents operate globally and that the affiliates at issue were foreign
entities. For example, the government stated at oral
argument that the Policy Requirement was necessary
“[p]recisely because the conduct here is carried out in
foreign areas.” CAJA1796; see CAJA1784. “[T]he foreign context matters,” the government explained, because funding recipients “are identified as working with
the United States government,” CAJA1824, and it was
therefore necessary to “secure an ex ante commitment
of agreement with the government’s policy” to avoid
the “danger that [the recipients’] views [would] be
misattributed to the United States,” CAJA1796, 1826;
see also CAJA1784.1
Indeed, this “foreign context” came up repeatedly.
Responding to Justice Breyer’s concern that compelling
related entities to take two inconsistent positions
“would be seen as totally hypocritical,” CAJA1785, the
government answered that the affiliate guidelines
would prevent the perception of hypocrisy because the
guidelines required sufficient separation between affiliates to ensure that one entity’s speech would not be attributed to the other, CAJA1791. Justices Ginsburg
and Kennedy, however, doubted whether this solution
was practicable where the required separation “in this
international setting” was not merely “a simple matter
of corporate reorganization,” but “quite an arduous”
matter of creating “a new NGO” and having it “recog1

Similarly, in its briefing, the government claimed that the
affiliate guidelines were meant to offer “flexib[ility] to account for
the challenges of operating overseas,” CAJA1733, “‘recognizing
that circumstances in some countries may make it difficult for organizations to satisfy some of the factors demonstrating objective
integrity and independence,’” CAJA1737.

16
nized in dozens of foreign countries.” CAJA1787; see
also CAJA1795; accord CAJA41, 99, 188-215, 303.
After considering those arguments, the Court
struck down the Policy Requirement as unconstitutional, holding that “it violates the First Amendment and
cannot be sustained.” AOSI, 570 U.S. 205, 220 (2013).
The Court explained that, unlike the programspecific restrictions on speech in Rust, compelledspeech conditions like the Policy Requirement necessarily “reach outside” the federal program. AOSI, 570
U.S. at 217. “By demanding that funding recipients
adopt—as their own—the Government’s view on an issue of public concern, the condition … affects ‘protected
conduct outside the scope of the federally funded program.’” Id. at 218 (quoting Rust, 500 U.S. at 197). In
other words, “[t]he Policy Requirement compels as a
condition of federal funding the affirmation of a belief
that by its nature cannot be confined within the scope
of the Government program.” Id. at 221.
The Court then considered and rejected the government’s argument that the affiliate guidelines obviated the First Amendment problem. While the government had argued that those guidelines permitted
respondents either to comply with the Policy Requirement themselves while speaking freely through their
affiliates, or speak freely themselves while their affiliates complied with the Policy Requirement, CAJA17341735, the Court concluded that “[n]either approach
[wa]s sufficient.” AOSI, 570 U.S. at 219.
The Court explained that affiliate structures may
be used to impose otherwise impermissible speech restrictions when those structures allow an organization
whose speech is restricted “to exercise its First
Amendment rights outside the scope of the federal

17
program.” AOSI, 570 U.S. at 219. But “[a]ffiliates cannot serve that purpose when the condition is that a
funding recipient espouse a specific belief as its own.”
Id. That is because the effects of a compelled-speech
requirement, unlike a speech restriction, cannot be
“‘cabin[ed]’” to an affiliate. Any affiliate that is “clearly
identified” with a recipient compelled to espouse the
government’s view can express contrary views “only at
the price of evident hypocrisy.” Id. Imposing the Policy Requirement on one entity would necessarily impinge on affiliates “clearly identified” with it because
compelled speech by its nature cannot be confined within the scope of the program. Id.; see id. at 221.
D. Proceedings Below
Despite the clarity of this Court’s ruling, the government continued for more than a year to issue requests for proposals (RFPs), requests for applications
(RFAs), and other official PEPFAR-related communications that included the Policy Requirement as a condition of funding, in some cases without making clear
that respondents were exempt from that condition pursuant to the preliminary injunction and in other cases
without making clear that the Policy Requirement
could no longer be applied to any U.S.-based organization. CAJA395-398; CAJA517-1379. None of the government’s communications made clear that the Policy
Requirement also could not be applied to U.S. NGOs’
clearly identified affiliates.
Respondents repeatedly brought these issues to
the government’s attention, eventually raising the need
for further litigation. In response to that prospect, the
government issued nonbinding interim guidance in
September 2014 stating that U.S.-based NGOs are not
required to have a policy opposing prostitution and sex

18
trafficking. USAID, AAPD 14-04 (Sept. 12, 2014),
https://www.usaid.gov/sites/default/files/documents/186
8/AAPD14-04.pdf (CAJA351-374); HHS, Interim Guidance for Implementation of the Organizational Integrity of Entities Implementing Programs and Activities
Under the Leadership Act, 79 Fed. Reg. 55,367 (Sept.
16, 2014) (CAJA375). Yet the government continued
thereafter to issue RFAs and RFPs that included the
Policy Requirement without the required exemptions.
CAJA382-383.
Moreover, even after issuing its new guidance, the
government continued to apply the Policy Requirement
to respondents’ clearly identified affiliates incorporated
outside the United States. The September 2014 guidance stated that the Policy Requirement “remains applicable” to “foreign affiliates” of U.S. NGOs, “unless
exempted by the [Leadership] Act or implementing
regulations.” CAJA375; see CAJA372-374. And the
guidance reiterated that separation and “objective …
independence” between a funding recipient subject to
the Policy Requirement and any affiliate expressing
inconsistent views was necessary to prevent the public
from “attribut[ing]” the affiliate’s views “to the recipient organization and thus to the Government.” CAJA373; see supra pp. 11-12, 12-13.
As a result of the 2014 guidelines, respondents cannot issue subawards to their own clearly identified foreign affiliates without imposing the Policy Requirement on them. In subaward situations, respondents
themselves must monitor their affiliates’ “compliance
with Federal statutes, regulations, and the terms and
conditions of the subaward,” including the Policy Requirement. 2 C.F.R. § 200.331; supra p. 9. Respondents’ failure to enforce the Policy Requirement against
their affiliates would “be grounds for unilateral termi-

19
nation of the award by USAID.” CAJA360-361; Pet.
App. 132a. In addition, because every affiliate that accepts Leadership Act funds must maintain “objective
… independence” from organizations engaged in contrary speech, the U.S. respondent cannot engage in “activities” the government would deem “inconsistent”
with the required anti-prostitution message without
jeopardizing its USAID funding. 45 C.F.R. § 89.3.
Given these continuing burdens on respondents and
violations of their rights, respondents sought a permanent injunction barring the government from issuing
communications that contain the Policy Requirement
with no exemption for respondents and their affiliates
or applying the Policy Requirement to respondents’
“foreign affiliates that are ‘clearly identified’ with” respondents by, among other things, their “share[d] …
name, brand, and mission.” CAJA376-378. The district
court received letter briefing and exhibits, held a hearing, and requested supplementary submissions and declarations. See CAJA376-2063.
In January 2015, the district court granted a permanent injunction, ordering the government to revise
its communications and barring the government from
applying the Policy Requirement to respondents or
their clearly identified affiliates, including those incorporated abroad. Pet. App. 46a-60a. The district court
relied on this Court’s holding that the effects of the Policy Requirement cannot be “‘cabin[ed]’” to an affiliate
and that imposing the Policy Requirement on a “‘clearly identified’” affiliate would force respondents to “face
‘the price of evident hypocrisy’ by taking a stance differing from” their affiliates. Pet. App. 53a-54a (quoting
AOSI, 570 U.S. at 219). The district court then explained that the affiliate’s place of incorporation is irrelevant to that analysis: “[W]hether the affiliate is

20
foreign … has no bearing on whether the domestic
NGO’s rights would be violated by expressing contrary
positions on the same matter through its different organizational components.” Pet. App. 54a. As the court
explained:
The [foreign or domestic] nature of the affiliate
is not relevant because it is not any right held
by the affiliate that the Supreme Court’s decision protects. Rather, it is the domestic NGO’s
constitutional right that the Court found is violated when the Government forces it to choose
between forced speech and paying “the price of
evident hypocrisy.” That constitutional violation is the same regardless of the nature of the
affiliate.
Pet. App. 54a-55a (citation omitted).
The government appealed, and for approximately
two years, respondents agreed to a series of stays of
the permanent injunction and the appeal to facilitate
negotiation of what respondents hoped would be a
comprehensive settlement to protect their First
Amendment rights and bring an end to this matter.
But in January 2017, with an agreement close at hand,
the government broke off negotiations and moved for
reconsideration or clarification of the injunction. The
district court denied the motion. Pet. App. 61a-71a.
The court of appeals affirmed the permanent injunction. Describing the issue on appeal as “narrow,”
Pet. App. 3a, the court concluded that respondents’ foreign affiliates are not only “clearly identified” with respondents, but belong to the same “homogenous” organizations and are thus “often indistinguishable” from
respondents, Pet. App. 8a-9a. And, the court explained,
this Court had “made clear” that respondents them-

21
selves are harmed when a “clearly identified” affiliate is
forced to profess the government’s views as its own,
and “that forcing an entity’s affiliate to speak the Government’s message unconstitutionally impairs that entity’s own ability to speak.” Pet. App. 8a.
The court rejected the suggestion that this reasoning turned on where an affiliate might be incorporated.
It was immaterial that foreign organizations lack First
Amendment rights of their own because the injunction
remedies a violation of “the First Amendment rights of
the domestic plaintiffs.” Pet. App. 10a. And although
the foreign context had been “on full display” before
this Court in 2013, it was “immaterial” to this Court’s
analysis that an affiliate might be foreign-incorporated:
That analysis “speaks only of the harm to [respondents]
due to their affiliation, not about the nature of the affiliated entity.” Pet. App. 8a n.3. Finally, the court distinguished circuit precedent upholding funding conditions that imposed speech restrictions on foreign organizations, explaining that those cases had not involved
clearly identified affiliates and had not considered
forced-speech conditions that “compelled” NGOs to
“make contradictory statements regarding their core
objectives.” Pet. App. 12a. The court accordingly held
that the district court “did not abuse its discretion” in
crafting the permanent injunction. Id.2
Judge Straub dissented again, arguing that foreign
organizations have no First Amendment rights and
that the case is controlled not by this Court’s prior de2

The court of appeals also rejected the government’s arguments that the injunction was procedurally improper or insufficiently clear, noting that given the “unusually full record in this
case,’’ the government should have no difficulty “in determining
the entities to which the injunction applies.” Pet. App. 13a-14a.

22
cision, but by decisions upholding speech restrictions on
foreign funding recipients. Pet. App. 14a-45a.
The court of appeals denied the government’s petition for rehearing, with no noted dissents except Judge
Straub. Pet. App. 72a-73a. With respondents’ consent,
the court stayed the mandate pending the filing and
disposition of a petition for certiorari, leaving in place
the stay of the permanent injunction. Pet. App. 74a.
REASONS FOR DENYING THE PETITION
I.

THE QUESTION ON WHICH THE GOVERNMENT SEEKS
REVIEW IS NOT PRESENTED

The government seeks review on the premise that
the court of appeals “invalidat[ed] [the Policy Requirement] on constitutional grounds” and asks this Court to
consider whether “the First Amendment forbids Congress from enforcing a condition on federal funds accepted by foreign recipients operating overseas because a separate, affiliated entity in the United States
objects to that condition.” Pet. 14-15; see Pet. i. The
court of appeals did no such thing, and no such question
is presented.
This Court already resolved the only constitutional
claim in this case when it held that the Policy Requirement “violates the First Amendment” by “compel[ling]
as a condition of federal funding the affirmation of a belief that by its nature cannot be confined within the
scope of the Government program.” AOSI, 570 U.S. at
221. The decisions below addressed only the scope of
relief that was appropriate, in the wake of the government’s failure to comply with this Court’s decision, to
cure the First Amendment harm to respondents—
including relief for the continuing harm to them that
occurs, as this Court held, when the Policy Require-

23
ment is imposed on their “clearly identified” affiliates.
Id. at 219.
Although it previously obtained this Court’s review
by casting respondents’ claim as a facial challenge to
the Policy Requirement, see supra p. 13, the government attempts to reframe this Court’s prior decision
invalidating the Policy Requirement as a mere carveout from enforcement for U.S. organizations and characterizes the permanent injunction below as a new and
distinct “invalidation” of the statute. Pet. 15. That
skewed presentation of this case disregards the remedial posture and seeks review of an issue that was not
litigated or decided below—namely, whether foreign
recipients of Leadership Act funds can “defy congressionally imposed conditions on those funds” by affiliating with a U.S. organization to “borrow[]” its rights.
Pet. 14-15; see also Pet. 18. Contrary to the government’s representations, the decisions below do not newly invalidate the Policy Requirement with respect to
foreign entities; they do not create or protect First
Amendment rights for foreign entities; and they do not
allow respondents’ rights to be “borrowed” by,
“shared” with, or “exported” to foreign entities. Pet.
14. The lower courts did not address any of those issues because only U.S. NGOs are parties to this case
and the courts’ inquiry into the proper remedy for respondents’ claim was directed exclusively at the harm
to the U.S. respondents from the violation this Court
already found. Indeed, the government fails to explain
how respondents would even have standing to assert
the rights of foreign NGOs that it claims are at issue.
Similarly—although this case involves wellestablished U.S. NGOs like CARE and World Vision
that, together with their foreign affiliates, have been
steadfast partners in the decades-long global fight

24
against HIV/AIDS—the government invokes the theoretical specter that foreign entities “could readily find”
U.S.-based front organizations for the purpose of subverting congressional mandates. Pet. 27. But if a foreign NGO ever tried to assert the constitutional rights
of a U.S. front, or brought suit to enjoin a compelledspeech funding condition based on the NGO’s affiliation
with a U.S. organization, that would be a different case.
It would not be controlled by this Court’s decision in
AOSI or by the decision below, which had no occasion
to consider such a claim. The decision below was tailored to redress harm to U.S.-based respondents from a
First Amendment violation this Court already found in
light of the factual record in this case. Accordingly, the
petition should be denied because the question it asks
the Court to resolve is not presented by this case.
II. THE QUESTION THAT IS PRESENTED DOES NOT WARRANT REVIEW
The only issue actually presented is whether the
district court abused its discretion in crafting relief for
the claim on which respondents prevailed in this Court
in 2013. That issue does not warrant review. The government does not dispute that a permanent injunction
was warranted. It does not contend that the lower
courts incorrectly articulated or applied the standard
for injunctive relief. It does not even acknowledge the
abuse-of-discretion standard, much less identify any
certworthy error in the court of appeals’ application of
that standard. And as explained below, the court of
appeals’ factbound application of the legal principles
and reasoning of this Court’s prior decision to the record here does not warrant review.

25
A. The Decision Below Reflects A Discretionary
And Factbound Application Of Settled Principles To Remedy A Violation This Court Already Found
The legal principle underlying the lower courts’
remedial determinations was that imposing the Policy
Requirement on respondents’ clearly identified affiliates harms respondents’ own First Amendment rights.
That is not a new legal issue that requires this Court’s
review. The Court already articulated that principle in
AOSI.
As discussed, in AOSI, this Court held that—unlike
the speech restrictions it had previously upheld in Rust
v. Sullivan, 500 U.S. 173 (1991), and Regan v. Taxation
With Representation of Washington, 461 U.S. 540
(1983)—the Policy Requirement compels speech that
cannot be confined within the bounds of the federal
program even when an affiliate rather than the respondent is the one compelled to speak. 570 U.S. at
218-219. As the Court explained, “by demanding that
funding recipients adopt—as their own—the Government’s view on an issue of public concern, that condition by its very nature affects ‘protected conduct outside the scope of the federally funded program.’” Id. at
218. Having taken the government’s anti-prostitution
pledge, an organization is no longer free to “turn
around and assert a contrary belief, or claim neutrality,
when participating in activities on its own time and
dime.” Id.
The Court likewise rejected the government’s argument that the Policy Requirement’s effects on protected speech outside the federal program could be
“‘cabin[ed]’” by imposing the Policy Requirement on
affiliates instead of respondents. 570 U.S. at 219.

26
Where the affiliate is “clearly identified” with the respondent, the effect will be the same: The government’s view will be attributed to the organization as a
whole, so that even affiliated entities that are not formally bound still are not free to express a view contrary to the government’s except “at the price of evident
hypocrisy.” Id. at 220.
Rather than engage with that dispositive point, the
government claims “the Court’s affiliate discussion is
beside the point” “[n]ow that respondents are not
‘bound’” by the Policy Requirement. Pet. 22. This
Court’s discussion, however, considered not only the
implications of compelling respondents to speak the
government’s message but also the implications of allowing respondents to set up affiliates that would be
subject to the Policy Requirement while respondents
remained unbound. See 570 U.S. at 219. “Neither approach is sufficient” to avoid First Amendment harm,
the Court held. Id. Either the affiliate would need to
be “distinct” from the respondent, in which case the respondent cannot “express its belief” through the affiliate, or “[i]f the affiliate is more clearly identified with
the” respondent, then imposing the Policy Requirement
on the affiliate would be functionally the same as imposing it on the respondent, which could not disavow its
affiliate’s statement of organizational policy without
“evident hypocrisy.” Id. As the lower courts correctly
understood, none of that reasoning depended on an affiliate’s place of incorporation. Supra pp. 19-20, 20-21.
Indeed, this Court’s analysis was based on a record replete with references to the fact that respondents’ affiliates are overseas. See supra pp. 15-16.
The government accordingly conceded below that
“when two organizations are closely linked, in some circumstances the speech of one can been seen as the

27
speech of both.” U.S. Reply 9, No. 15-974 (2d Cir. Nov.
17, 2017). And it acknowledged that “part of the reason” for this Court’s holding regarding clearly identified affiliates was that “one organization cannot credibly disavow the speech of another if the two are closely
associated.” Id.3 Those accepted legal principles, recognized in this Court’s prior decision, were sufficient on
the undisputed facts here for the court of appeals to
conclude that the district court “did not abuse its discretion in issuing its permanent injunction,” Pet. App.
7a. On that record, the court of appeals found that the
legally separate entities at issue “are not just affiliates”
but part of the same “homogenous” organizations that
“share their names, logos, and brands” with respondents and “present a unified front.” Pet. App. 11a. “This
sameness,” the court determined, “creates the risk of
evident hypocrisy” that led the Court to find a violation
of respondents’ First Amendment rights in AOSI. Id.
The government offers no compelling reason to
second-guess that application of law to fact. The record
is undisputed that respondents are bona fide U.S. organizations with hard-earned reputations based on
their track records of successful global-health work;
that they operate through clearly identified affiliates in
part because of petitioners’ funding preferences and the
requirements of foreign law; and that they do so under
3

Indeed, the whole point of the government’s requirement
that funding recipients maintain “objective … independence” from
affiliates engaged in activities inconsistent with the recipient’s opposition to prostitution, HHS has said, is because the government
fears that a “reasonable observer would attribute [those] activities
to the funding recipient” and thus to the government. HHS, Organizational Integrity of Entities That Are Implementing Programs and Activities Under the Leadership Act, 75 Fed. Reg.
18,760, 18,762 (Apr. 13, 2010); see CAJA373.

28
a unified and carefully managed common public identity
and voice that makes the speech of one appear to any
reasonable observer as the speech of all. Supra pp. 4-8.
The Second Circuit so found, and the government does
not seek review of those findings here.4
The government also does not contend that the
harm to respondents’ speech rights that occurs when
the Policy Requirement is imposed on their clearly
identified affiliates is somehow different or less serious
if those affiliates are foreign instead of domestic. As
the lower courts observed, this Court’s reasoning
leaves no room for such a distinction—it turned on “the
harm to [respondents] due to their affiliation,” not on
“the nature of the affiliated entity.” Pet. App. 8a n.3;
see also Pet. App. 54a-55a.
Indeed, as a practical matter, the manner in which
Leadership Act funds are disbursed to respondents’ affiliates ensures that the harm this Court identified will
routinely occur. In many cases, the prime recipient of
Leadership Act funds is the U.S. respondent, which
then makes a subgrant to the legally separate affiliate
4

The government does question whether any evident hypocrisy exists in this case and whether respondents would really be
harmed if their clearly identified affiliates were compelled to adopt
a policy opposing prostitution. Pet. 23-24, 28. Those arguments,
which the government never made below, are foreclosed by the
uncontroverted record and by AOSI. See 570 U.S. 218-219. They
also defy common sense: Imposing the Policy Requirement on
clearly identified affiliates deprives respondents of their right to
express a different view (or no view at all) because the affiliate and
respondent are, as the court of appeals found, “often indistinguishable.” Pet. App. 9a. The government’s own affiliate regulations
require strict separation purportedly to prevent contrary speech
by an affiliate from being imputed not only to the recipient of
Leadership Act funds but also to the government. Supra n.3.

29
that will carry out the funded project. In that circumstance, the U.S. respondent becomes responsible for
ensuring that the affiliate complies with all terms of the
grant. Supra p. 9. In the case of a foreign affiliate, absent the injunction, that means the U.S. respondent
must impose the Policy Requirement on its own affiliate, monitor the affiliate’s compliance, and make sure
that the affiliate maintains not only legal but public
separation from any entities engaged in contrary
speech—including the U.S. respondent itself, which is
an impossible condition unless the U.S. respondent itself refrains from speech inconsistent with the government’s viewpoint. See 2 C.F.R. § 200.331(d); 45 C.F.R.
§ 89.3; supra pp. 9, 12-13, 18-19. The U.S. respondent’s
own federal grants could be terminated for failing to
enforce the Policy Requirement on its co-branded foreign affiliates or for contradicting its affiliates’ antiprostitution pledge. CAJA369-370; Pet. App. 132a.
Thus, under the government’s view, respondents’
legally separate but clearly identified affiliates cannot
become subrecipients to conduct respondents’ incountry services and programs unless the affiliates
comply with the Policy Requirement, and respondents
must refrain from speech activities “inconsistent” with
that compliance. In that paradigmatic situation, respondents face precisely the same choice they did in
AOSI: forgo the funds or accept the funds subject to
the Policy Requirement and the price of evident hypocrisy.5 The lower courts’ implementation of this Court’s
5

While respondents also operate through unincorporated
branch offices overseas that share respondents’ exemption from
the Policy Requirement even under the government’s view, these
harms are unavoidable in cases where foreign governments require NGOs to be locally incorporated.

30
decision on the basis of these facts does not warrant review.
B. There Is No Circuit Split Or Conflict With
This Court’s Precedent
The government concedes “the absence of a square
circuit conflict” on the question it frames for review,
which is not presented. Pet. 25. There is also no conflict on the question that is actually presented—
whether the district court abused its discretion in permanently enjoining the enforcement of an unconstitutional statute against respondents’ clearly identified
affiliates to remedy the violation of respondents’ First
Amendment rights.
The government relies primarily on the same decisions it cited when this case was last before the
Court—Rust, Reagan, and FCC v. League of Women
Voters of California, 468 U.S. 364 (1984). The government contends that the decision below conflicts with
the principle, established by this Court in those cases,
that “a funding condition does not violate the First
Amendment if an entity complying with that condition
can establish a separate affiliate that allows it to speak
freely.” But as this Court has already explained, those
cases did not involve compelled speech that cannot be
confined within the federal program. AOSI, 570 U.S. at
217-220. “[T]he distinction drawn in these cases,” the
Court explained, is “between conditions that define the
federal program and those that reach outside it.” Id.
The speech restrictions at issue in Rust and Regan
“governed only the scope of the [federally funded] program” and left funding recipients free to engage in the
restricted speech “‘outside the scope of the federally
funded program,’” including through separate affiliates.
Id. at 217. (The funding condition in League of Women

31
Voters failed because it allowed no alternative outlet
and thus regulated speech “outside the scope of the
program.” Id. at 216.) But a funding condition that
compels speech, the Court held, is fundamentally different. Compelling a funding recipient to adopt the
government’s viewpoint as its own “by its very nature
affects ‘protected conduct outside the scope of the federally funded program’” and “cannot be confined within
the scope of the Government program.” Id. at 218, 221.
The government refuses to acknowledge that critical distinction. It insists (at 19) that the decision below
conflicts with the principle of Regan and Rust that a
speech restriction can be imposed on one affiliate without undermining the First Amendment rights of the
other. But as AOSI held, the same is not true of a compelled-speech requirement. The decision below merely
gives effect to this Court’s holding—fully consistent
with the government’s cases—that a compelled-speech
requirement cannot be “cabin[ed] … within the scope of
the federal program.” 570 U.S. at 219 (quotation marks
omitted). The government effectively seeks to relitigate that aspect of AOSI.
As to circuit conflicts, none of the three circuit cases the government cites even addresses the question
presented here. And only one, DKT Memorial Fund
Ltd. v. USAID, 887 F.2d 275 (D.C. Cir. 1989), arose
outside the Second Circuit. The government cites DKT
for the uncontested proposition that “aliens beyond the
territorial jurisdiction of the United States are generally unable to claim the protections of the First Amendment.” Pet. 16 (quoting 887 F.2d at 284). DKT involved a challenge to the so-called “Mexico City Policy”
(also referred to as the “global gag rule”), which restricts foreign NGOs from promoting abortion as a condition of receiving federal funding. Because it involved

32
a speech restriction, not a compelled-speech requirement, DKT is inapposite for the same reasons as Regan
and Rust. The other two cases—Second Circuit decisions that obviously cannot be the basis of a circuit split
with the decision below—also involved the Mexico City
Policy’s restrictions on speech and did not consider the
effects on a U.S. organization’s rights when a compelled-speech requirement is applied to its clearly identified affiliates. See Planned Parenthood Fed’n of Am.,
Inc. v. USAID, 915 F.2d 59 (2d Cir. 1990); Center for
Reproductive Law & Policy v. Bush, 304 F.3d 183 (2d
Cir. 2002). As the court of appeals here explained,
“[t]he policies in those cases did not compel speech, did
not involve closely identified organizations, and, unlike
this case, did not burden the free speech rights of domestic organizations.” Pet. App. 12a. That the government nevertheless continues to present those cases
as “analogous” to this one, Pet. 25, confirms that the
government has mischaracterized the question presented.
C. Whether The District Court Abused Its Discretion Has No Importance Beyond The Facts
Of This Case
The government does not contend that reviewing
the scope of the remedial order here would have implications for injunctions entered in other cases. And it
cites no other case or context in which any remotely
similar fact pattern has arisen—likely because the government rarely imposes naked compelled-speech conditions like the Policy Requirement. Instead, the government’s only other argument for review (at 26-28) is
that the injunction in this case is important to the administration of the PEPFAR program. It is not, and
the government provides no support for its assertion

33
that enforcing the Policy Requirement in a manner that
violates respondents’ First Amendment rights is somehow “critical to enforcing the Leadership Act as Congress designed it.” Pet. 27. The importance of the Policy Requirement to PEPFAR is just another argument
the government already made in AOSI for violating respondents’ rights in the first place. CAJA1711-1719.
The government claims that the Second Circuit’s
decision “will affect a substantial amount of federal
funding,” stating that “30% of new PEPFAR funding in
2018 was granted directly to foreign recipients.” Pet.
27. That argument ignores that the challenged aspect
of the permanent injunction applies only to entities that
are respondents’ clearly identified affiliates, which account for only a portion of that 30%.
Indeed, the government challenges the permanent
injunction only at the margin. InterAction represents
the largest alliance of international NGOs and partners
based in the United States, and out of its more than 220
members and partners, respondents are aware of fewer
than ten that operate through the kinds of separately
incorporated foreign affiliates at issue. The benefit of
the injunction is extremely important to those NGOs—
including CARE, World Vision, Save the Children, and
Pathfinder—because, absent the injunction, they would
not be able to make subgrants to or work with cobranded affiliates without subjecting the affiliate, and
thus effectively themselves, to the Policy Requirement.
Supra pp. 9, 12-13, 18-19. But the suggestion that the
“narrow” issue here is significant to PEPFAR’s overall
administration is mistaken. Pet. App. 3a.6
6

Respondents have provided petitioners with detailed information identifying their clearly identified foreign affiliates to remove any doubt as to the limited universe of affected U.S. NGOs.

34
The government posits that foreign NGOs will now
“readily find” U.S. entities to affiliate with to avoid the
Policy Requirement, Pet. 27, but that speculation is
baseless. Respondents are aware of no instance in
which this has happened, and the government cites
none. Moreover, that possibility is extremely remote
given the stringent eligibility requirements for Leadership Act funds. Only NGOs that have a proven track
record in international development can obtain funding,
supra p. 9—making the government’s hypothetical
shell game highly unlikely.
The government also cites the Leadership Act’s
public-health goals. But the unrebutted record demonstrates that the Policy Requirement impedes, rather
than advances, those goals. See CAJA34-37, 65-66, 7677, 302-303. In 14 years of litigation, the government
has offered no evidence that the Policy Requirement
does anything for public health, and it fails to explain
how infringing on respondents’ First Amendment
rights would do so.
Finally, the government claims that the injunction
threatens to “create significant disruptions” to the administration of PEPFAR. Pet. 27. But the government offers no support for that assertion except to argue that it should not have to change how it administers the program. Pet. 27-28. The government overlooks that its obligation to revise agency regulations
and issue new guidance and grant documents resulted
from this Court’s holding that the Policy Requirement
“violates the First Amendment and cannot be sustained.” 570 U.S. at 220. The injunction does no more
than remedy that violation and might have been unnecessary altogether had the government simply complied
with this Court’s decision in the first place. Although
the government refuses to acknowledge that respond-

35
ents are harmed when their clearly identified affiliates
are forced to “affirm[] … a belief that by its nature cannot be confined within the scope of the Government
program,” id. at 221—an affirmation that respondents
themselves must refrain from contradicting and enforce
for any subgrantees—this Court has already spoken on
that issue. The implementation of a remedy that both
lower courts found appropriate in the exercise of their
sound discretion to cure that harm does not merit review. It is time for the injunction to take effect and for
this 14-year-old case to end.
CONCLUSION
The petition should be denied.
Respectfully submitted.
ARI J. SAVITZKY
KATHERINE FLORIO
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007

NOVEMBER 2019

DAVID W. BOWKER
Counsel of Record
CATHERINE M.A. CARROLL
DAVID A. STOOPLER
KEVIN M. LAMB
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
david.bowker@wilmerhale.com

